<html>
<title> - PROTECTING CIVIL SOCIETY, FAITH-BASED ACTORS, AND POLITICAL SPEECH IN SUB-SAHARAN AFRICA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 PROTECTING CIVIL SOCIETY, FAITH-BASED
                    ACTORS, AND POLITICAL SPEECH IN
                           SUB-SAHARAN AFRICA

=======================================================================

                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2018

                               __________

                           Serial No. 115-129

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                                  ________________
                                 
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE                    
30-018PDF                           WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Negussie Mengesha, director, Africa Division, Voice of 
  America........................................................     4
Mr. John Prendergast, co-founder, The Sentry.....................    12
Ms. Nanythe Talani, representative, The Torture Abolition and 
  Survivors Support Coalition....................................    29
Mr. Steven Harris, policy director, The Ethics and Religious 
  Liberty Commission, Southern Baptist Convention................    38
Mr. Emerson Sykes, legal advisor--Africa, The International 
  Center for Not-for-Profit Law..................................    46

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Negussie Mengesha: Prepared statement........................     7
Mr. John Prendergast: Prepared statement.........................    16
Ms. Nanythe Talani: Prepared statement...........................    32
Mr. Steven Harris: Prepared statement............................    41
Mr. Emerson Sykes: Prepared statement............................    48

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Threats Against VOA Africa Division Journalists: 
  January 2017-May 2018..........................................    72

 
                 PROTECTING CIVIL SOCIETY, FAITH-BASED
                     ACTORS, AND POLITICAL SPEECH IN
                           SUB-SAHARAN AFRICA

                              ----------                              


                         WEDNESDAY, MAY 9, 2018

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1:46 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And good 
afternoon to everybody. And first of all, I apologize for the 
lateness in starting. We did have a series of votes, and we 
have a number of members who are on their way. So I look 
forward to them joining us for this hearing.
    Our hearing this afternoon will explore U.S. policy 
responses to the growing trend of government incursions on the 
space for non-state actors in sub-Saharan Africa as 
authoritarian regimes and back-sliding democracies have 
entrenched themselves in countries such as Sudan, South Sudan, 
the Democratic Republic of Congo, Rwanda, and Burundi. 
Governments have increasingly encroached upon the mediating 
space between individuals and the state, particularly against 
religious groups and journalists who often stand as independent 
institutional checks to authoritarian rule.
    Protecting the non-governmental sector in sub-Saharan 
Africa is critical to preserving civil and political rights 
within the region. As we have learned from the United States 
Civil Rights movement, groups such as churches and independent 
journalists are often the safekeepers of civil liberties. 
Through sanctions and public diplomacy tools, the international 
community can protect the space for these safekeepers to 
operate in sub-Saharan Africa. We can do it and we must do it, 
and we must do it robustly.
    For example, the Catholic Church in the Democratic Republic 
of Congo is the only organization with a nationwide 
institutional presence in moral authority capable of checking 
Kabila's growing authoritarian rule.
    The National Episcopal Conference of the Congo, or CENCO, 
is the only civil society institution that pressures the Kabila 
regime to respect human rights and democratic principles. CENCO 
mediated the Saint Sylvester political agreement in 2016. It 
also oversees the Episcopal Commission for Justice and Peace, 
which conducts voter education, election observer training 
programs, and is a recipient of USAID funding and has expressed 
moral support for pro-democracy protests.
    The Catholic Church's leadership in the Congo does not come 
without a cost. Priests, nuns, and parishioners have been 
targeted, attacked, and killed in retaliation for that 
leadership. A few months ago, Father Sebastien Yebo, parish 
priest of St. Robert, in an outer eastern suburb of Kinshasa, 
was abducted by the Congolese security forces.
    Interviewed on RFI radio, Father Joseph Bemma of St. 
Kisito's parish, said he has rarely slept at home since the 
brutal suppression of the protest marches organized by the Lay 
Coordination Committee on January 21.
    The closing of space for faith-based organizations and 
other civil society organizations is indeed an extraordinarily 
worrying trend as the number of sub-Saharan African countries 
within those countries. Humanitarian aid workers, journalists, 
priests, and political candidates and their families have been 
increasingly targeted and threatened by governments in sub-
Saharan Africa.
    If you look north of the DRC, we can see that, in South 
Sudan, a country that I have visited twice within the last 2 
years, we see humanitarian organizations are harassed by 
government forces. Last year, humanitarian organizations 
reported over 700 cases of humanitarian access incidents.
    The environment for humanitarian operation grows 
increasingly difficult and dangerous as the geographic scope of 
humanitarian need continues to expand. South Sudan, shockingly, 
has today, over 1.7 million IDPs. And, of course, that is in 
addition to those who have made their way into Uganda. And Ms. 
Bass and I actually went and visited the camp, Bidi Bidi camp, 
where many of those refugees were, and that number has swelled 
to close to 1 million.
    There is also growing concern throughout the region on the 
closing of independent objective media sources. Most recently, 
Burundi suspended Voice of America, and suspended BBC earlier 
this week for a period of 6 months, according to the 
announcement made at a press conference by CNC.
    The CNC claims that this suppression is in response to 
biased reporting. This suspension comes 2 weeks before the 
referendum allowing Burundi's President to serve into the 
2030s. An apparent violation of constitutional term limits, he 
is looking to extend, as we have seen this trend in many parts 
of the world, including in many countries in sub-Saharan 
Africa. VOA's local correspondent told our U.S. Embassy people 
that the decision was a complete surprise. And we will hear 
more from VOA's Africa director as we kick off with our 
witnesses.
    All of our witnesses today bring us, this subcommittee, 
and, by extension, the Congress on-the-ground perspective of 
the closing space for non-governmental organizations. And they 
will provide a snapshot of conditions in several countries. 
Their testimony will provide evidence of a growing regional 
trend of incursions into that space.
    My hope is that this hearing, and it will be a part of a 
series, will inform our view of possible U.S. policy responses 
to better protect the fundamental civil and political rights in 
sub-Saharan Africa, which includes using sanctions, greater 
support for faith-based actors via USAID, and support for many 
independents, including Voice of America Africa.
    So I would now like to introduce our distinguished 
witnesses. And, again, we will be joined by at least two of our 
subcommittee members momentarily. And with the indulgence of 
the witnesses, when they do come, I would like it to yield to 
them for any opening comments that they might have.
    Speaking today, our first witness will be Negussie 
Mengesha, the Africa division director of Voice of America. Mr. 
Mengesha has more than 30 years of experience with the Voice of 
America, and has led the Africa division since 2014. 
Previously, he was the Africa division's program manager for 14 
years, where he was instrumental in launching VOA programs to 
Ethiopia, Zimbabwe, Somalia, and Mali. He also served as chief 
of the central Africa services for 4 years and was chief of 
VOA's Amharic service for more than a decade.
    Before taking on his various leadership roles, he was a 
writer, reporter, and editor at VOA. Mr. Mengesha studied 
political science at Albertus-Magnus-University in Cologne, and 
has practical training from the West German Broadcasting 
Corporation as well.
    We will then hear from John Prendergast. And I would like 
to note parenthetically that the genesis of this hearing was a 
meeting that we had with him. And he brought some very 
startling and sobering facts to light during that meeting in my 
office underscoring the need for this hearing and the 
recommendations he and the others I know will be making to this 
committee, to the Congress, and to the State Department and 
White House as well.
    John Prendergast is a human rights activist, a New York 
Times best-selling author, who has focused on peace in Africa 
for over 30 years. He is the founding director of Enough 
Project, an initiative to end genocide in crimes against 
humanities. He is also cofounder with George Clooney of the 
Sentry, a new investigative initiative chasing the assets of 
war criminals and their international facilitators.
    Mr. Prendergast has worked for the Clinton administration, 
the State Department, two Members of Congress, and the National 
Intelligence Council. He can't hold a job. I am kidding. He 
moves on to more and better things. UNICEF, Human Rights Watch, 
and International Crisis Group, and U.S. Institute for Peace. 
He has got a very, very broad background and has made a huge 
contribution over the years.
    He serves as the executive director of the Not On Our Watch 
founded by Matt Damon, Brad Pitt, George Clooney, and Don 
Cheadle. He appeared in the Warner Brothers motion picture 
``The Good Lie'' starring Reese Witherspoon.
    During his time in government, Mr. Prendergast was part of 
the facilitation team behind the successful 2-year mediation 
which ended in 1998-2000 war between Ethiopia and Eritrea, and 
was part of the peace process for Burundi led by Nelson Mandela 
for Sudan and for the Congo.
    He has been awarded seven honorary doctorates, has been a 
visiting professor at more than a dozen prestigious 
universities, and he has been the subject of a number of high 
profile media stories and, again, has been recognized 
repeatedly and rightfully for his humanitarian work.
    Our third witness will be Steven Harris, who serves as 
policy director for the Ethics and Religious Liberty Commission 
of the Southern Baptist Convention. He holds a bachelor of 
science in religion from Vanderbilt, master of divinity from 
the Southern Baptist Theological Seminary, master of arts in 
religion from Yale, and is currently a Ph.D. student in the 
study of religion at Harvard. And having read his testimony, he 
makes a number of incisive recommendations that this committee 
needs to be looking at very, very carefully.
    Then we will hear from Nanythe Talani, who is a human 
rights advocate and representative of the Torture Abolition and 
Survivors Coalition. Previously, she was an investigative 
journalist for TerrAfrica, a French magazine. She has taught 
journalism and law at the Institute of Technique Professional 
and has traveled across her home country of the Congo to 
instruct community broadcasters. Additionally, she is the 
author of Coeur Ensanglante, I hope I pronounced that 
correctly, a poetry collection. She holds a master's degree in 
journalism and a bachelor's degree in African literature. We 
welcome her to this hearing as well.
    Our fourth witness will be Emerson Sykes, who is the legal 
advisor for the Africa Programs at the International Center for 
Not For Profit Law, or ICNL, where he provides technical legal 
assistance and training to Africa civil society to improve the 
legal framework protecting the freedom of association, 
assembly, and expression. Since joining ICNL in 2013, Mr. Sykes 
has managed programs in more than 12 countries in sub-Saharan 
Africa, and worked on the regional level with the African 
Commission on Human Rights and People's Rights. Previously, he 
was assistant general counsel to New York City Council. He also 
served as senior policy fellow in the office of member of the 
Parliament in Ghana and research U.S. foreign policy for the 
Century Foundation, a progressive think tank.
    Mr. Sykes holds a juris doctorate from the New York 
University School of Law where he was a Root-Tilden-Kern 
scholar, and a master's in public affairs from Woodrow Wilson 
School in Princeton. He also earned a bachelor's degree in 
political science at Stanford.
    So I would like to welcome all of you to this hearing.
    Again, when the members do show up, we will ask them if 
they have any opening comments. But I would like to now go to 
our first very, very distinguished witness, Mr. Mengesha.

STATEMENT OF MR. NEGUSSIE MENGESHA, DIRECTOR, AFRICA DIVISION, 
                        VOICE OF AMERICA

    Mr. Mengesha. Chairman Smith, first of all, thank you so 
much for the kind introduction. And also, I am very thankful 
for the opportunity to testify today.
    As you mentioned, I am the Africa division director of 
Voice of America, which reports in 15 languages and reaches 
more than 68 million Africans each week on television, radio, 
and digital platforms. VOA is the largest of five media 
networks under the Broadcasting Board of Governors, and the 
only BBG network in sub-Saharan Africa.
    We connect the continent with the United States in 
accordance with the VOA Charter. But we also serve an 
additional purpose of providing Africans with an independent 
voice in the media.
    Today, I am going to focus my remarks on our work in 
Burundi, one of the poorest countries in the world. I don't 
come to you as a policy expert or a diplomat. I am a journalist 
and started my career in Ethiopia in 1966. I fled my country in 
1980 because of political persecution, and I have seen the 
value of free press in times of political turmoil and conflict.
    Since 2015, more than 400,000 people have fled Burundi, and 
its capacity to support free press is extremely weak. Voice of 
America's status as an international broadcaster has allowed it 
to remain independent, and the editorial firewall granted by 
Congress has been critical to maintaining our credibility.
    In Burundi, the Voice of America broadcasts on AM, 
shortwave, television and on digital platforms. But FM radio is 
by far the most popular means. BBG owns the FM radio 
transmitters, and through a country-to-country agreement, the 
Government of Burundi provides access to the radio towers. They 
are licensed to broadcast on certain frequencies. We currently 
have two local FM stations in Manga Hill and in Bujumbura.
    In December 2017, President Pierre Nkuruziza announced that 
he was calling for a referendum to amend the constitution. If 
this referendum succeeds, he will be eligible to sit as 
President beyond 2030. He has been President since 2005.
    Last week, on Friday, 1 day after World Press Freedom Day, 
the Voice of America was informed by the National Council of 
Commission, the governments media regulatory body, that our 
broadcast and BBC's would be suspended for 6 months effective 
May 7, on Monday.
    Radio France was given a warning. This suspension comes 2 
weeks before the referendum on May 17. It was a complete shock 
for all of us. BBG and VOA sprung into action to address the 
prospect of losing our FM stations and more than 3 million 
audience members. BBG's Office of Technology, Services, and 
Innovation arranged for extra shortwave broadcasts to 
accommodate new programming. VOA began to run frequent promos 
on our FM stations to educate listeners about shortwave 
alternatives. We added live shows over the weekend.
    VOA Director Amanda Bennett issued a public statement 
expressing dismay about CNC's decision. Our reporters also 
immediately jumped on the story. The Central Africa service 
launched a new digital content transmission.
    On Friday, during Murisanga, a popular call-in radio show, 
we interviewed the legal advisor to CNC who stated that the 
decision to suspend VOA was not final and could be appealed in 
court. His comments suggested that there may be a solution to 
the shutdown. And BBG immediately engaged the State Department 
to seek diplomatic support. I would like to express my 
gratitude to the State Department, U.S. Embassy in Bujumbura, 
and Ambassador Anne Casper for their efforts to assist Voice of 
America.
    On Sunday, the chairman of the CNC also appeared on a VOA 
Central Africa call-in show. The host of the show and other 
call-ins pushed back on his assertion for the decision. 
Unfortunately, the government followed through with this 
announcement. On Monday, our stringers throughout Burundi 
reported that VOA's FM frequencies were suspended. BBG 
technical monitors report that the shortwave signals are being 
received, although shortwave will never be as clear as FM, 
particularly in urban areas.
    We are committed to addressing the concerns of the 
government without sacrificing our editorial independence and 
journalistic standards. We are also watching this situation 
carefully for the safety of our journalists on the ground and 
their families. We have contingency plans in place if need 
should arise.
    The closure of our FM stations in Burundi is a significant 
loss to the citizens of that country. VOA has a measured weekly 
audience of 57 percent of adults in Burundi. In Bujumbura, the 
weekly audience is 85 percent, one of the highest, actually. 
The primary language for our audience is Kirundi, but we also 
have audiences in Swahili, French, and English. All of these 
languages are affected by this suspension. But the biggest 
impact comes to Kirundi, which reaches 55 percent weekly, more 
than 3.2 million adults primarily on FM radio.
    What is most impressive about this service is its level of 
trust in Burundi. Ninety-one percent of the audience trusts the 
news and information VOA provides them. For this reason, it is 
imperative that VOA continue to present accurate, balanced, and 
comprehensive news and information to Burundi.
    Our work is vital for providing a platform for civic 
engagement, maintaining the space for free speech, including 
civil, political discourse, and supporting accountability, all 
fundamental tenets of an independent press. We are grateful for 
the support of Congress to the Voice of America, especially to 
VOA in Africa.
    Thank you again for the opportunity to speak.
    [The prepared statement of Mr. Mengesha follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  
                              ----------                              

    Mr. Smith. Mr. Mengesha, thank you so much for your 
testimony, for your leadership.
    We have been joined by Mr. Castro, serving as ranking 
member today.
    Any comments he might have and then we will go to Dan 
Donovan.
    Mr. Castro.
    Mr. Castro. Thank you, Chairman Smith.
    And I would also like to thank our witnesses for being here 
and shedding some light for us on these critical issues.
    Today, human rights, civil liberties, including freedom of 
assembly, freedom of speech, and rule of law, are constantly 
under threat in many parts of the world. Opposition party 
members, activists, and journalists are repeatedly harassed, 
intimidated, and sometimes jailed across sub-Saharan Africa and 
the world.
    Electoral commissions and courts are losing their 
independence as Presidents stack them with individuals 
favorable only to them. Governments are regularly attempting to 
limit the activity of civil society by enacting laws, 
criminalizing unregistered associational activities, imposing 
onerous registration requirements, and restricting access to 
foreign funding.
    It is now the norm for repressive and autocratic 
governments to shut down the internet in an effort to halt mass 
protests. This is an affront to the freedom of speech, the 
bedrock of democracy, and our values and principles as 
Americans.
    As these autocratic regimes entrench themselves, they 
increasingly crack down on civil society actors, especially the 
most vocal opposition groups. In some countries, it is 
democracy's activists and journalists who face the brunt of 
these repressive governments. In others, faith-based actors 
have emerged as the strongest voice for safeguarding civil 
liberties.
    We have experience with this in our own country. The church 
emerged as key during our own civil rights movement decades 
ago. We see the same in the Democratic Republic of Congo, where 
the church is one of the strongest voices against democratic 
backsliding.
    This increasing crackdown on civil society shows us that 
our democratic gains are now under threat. Our message to these 
countries must be clear: Inclusive open societies contribute to 
better democracies. I am certain that some will see what is 
happening in the United States and question our own challenges 
today with democracy.
    Institutions in the United States remain strong and provide 
some checks and balances so that things don't just fall apart. 
We also see the President withdraw from our leadership role in 
the world as evidenced by this administration's foreign policy 
that stepped away from our partnership with Africa. This was 
made clear when the President suggested a 26 percent cut to 
State Department and USAID to Congress earlier this year.
    Congress remains in solidarity with our partners in Africa, 
and focused on U.S. political and economic engagement with the 
continent. We push back against the President's cuts, and 
ensure that funding continues to go toward capacity building 
for civil society organizations, including those that work to 
defend human rights, strengthen independent media, and the rule 
of law.
    Congress remains committed to encouraging governments to 
respect their own constituents, their constitutions, and their 
people, and the fundamental freedoms of assembly, association, 
and expression.
    I look forward to hearing from all of our witness in the 
discussion today.
    Thank you, and I yield back, Chairman.
    Mr. Smith. Thank you.
    Mr. Donovan.
    Mr. Donovan. I also look forward to hearing from our 
witnesses, Mr. Chairman. So I will yield all my time for the 
witnesses to have more time to testify and answer our 
questions.
    Thank you.
    Mr. Smith. I would like to now yield to John Prendergast 
for as much time as he may consume.

   STATEMENT OF MR. JOHN PRENDERGAST, CO-FOUNDER, THE SENTRY

    Mr. Prendergast. Thank you so much, Mr. Chairman. And to 
the other members of the subcommittee, we are all very grateful 
for your ongoing commitment to human rights issues in Africa 
and throughout the world as evidenced by your presence today 
and on your long-serving support for the issues that that bring 
us together here today.
    Because my esteemed colleagues are covering a number of 
other issues related to the things we are covering today, I 
would like to focus my time specifically on how to achieve the 
goals of this important hearing. So my focus--my time is going 
to laser in on one aspect of the overall issue. The missing 
ingredient, I think, of the U.S. Government's approach to 
countering repression in Africa and throughout the world, and 
that is, how to build U.S. leverage needed to pressure leaders 
to stop brutally repressing basic freedoms of speech and 
assembly and religion? What possible levers of influence could 
the United States Government utilize to support the goals of 
this critical hearing topic?
    So I am going to skip down to the bolded section on network 
sanctions and add a personal confession. As a former diplomat, 
a former diplomat and a reformed foreign policy expert, it took 
me decades to figure out what I am going to tell you in the 
next 5 minutes.
    So let's start with something called network sanctions. 
Much, much more important than just using the term 
``sanctions'' and utilizing the tool of sanctions. Why? Because 
those responsible for perpetrating conflict and targeting civil 
society in Africa have come to view sanctions as largely 
ineffective, an underwhelming challenge to their hold on power 
when only a handful of individuals without--usually without 
ties to the international financial system are the ones being 
sanctioned.
    The reason is that sanction regimes focused on this region 
lack the necessary ingredients to make this tool effective. The 
idea that sanctions in Africa don't work is a product 
specifically of the design, the implementation of an 
enforcement of sanctions in Africa, not the tool itself. To be 
effective, sanctions have to be levied against entire networks 
that enable these authoritarian regimes to oppress civil 
society, not just the individuals that are committing the 
abuses.
    Deploying these network sanctions has been the strategy 
that the United States has used in Iran and North Korea and 
other places to drive them to the negotiating table. The 
strategy has been bipartisan; it has extended over the last two 
administrations, perhaps you can argue even further back, and 
consistently relied on leadership and direction from Congress, 
which is the key point. Congress has driven the train on these 
issues so many times.
    The United States has deployed extensive sanctions, as you 
all know, targeting Iran's leadership and military networks in 
an effort to disrupt the illicit funding streams used by the 
country's ruling elites to maintain their grip on Iran's 
Government and economy.
    In two cases, and this is very important because, again, we 
are talking about what Congress can do. In two cases, 
specifically using executive orders, 13606 and 13628, these 
sanctions specifically focused on Iran's targeting of civil 
society. And I think these are important models to build from 
in order to ensure protection for civil society in sub-Saharan 
Africa. They are important models because they focus on 
networks. Sanctions that target full networks in this way are 
powerful tools for changing behavior, and pressuring targeted 
individuals to alter their behavior or come to the negotiating 
table.
    Network sanctions work because they affect not only the 
primary individuals themselves, but also those who are acting 
on their behalf, and the companies that they own or controlled 
by these primary individuals. If you go after the individuals, 
their networks, their companies, you sanction all of them at 
once, or in close succession, an individual's network doesn't 
have enough time to absorb and adjust to the financial impact 
of being cut off from the U.S. financial system.
    And that is the precise outcome we are looking for. Shut 
them out of the international financial system. Try, if you 
have millions, if not billions of dollars in the international 
financial system, illicit gains in real estate, in banks, in 
shell companies, try to do business if you can't access the 
banks. You will not be able to do it. This is the key approach 
to driving and changing behavior.
    We believe network sanctions would have a dramatic impact 
on protecting civil society in countries in Africa. And all 
these countries, specifically where interlocking kleptocratic 
networks involving political military officials, their business 
allies, arms dealers and international financial facilitators, 
particularly in the banks, they profit from mayhem, and they 
obtain technology from commercial partners that allow them to 
suppress their own populations.
    The U.S. Department of the Treasury, as well as its 
counterparts in the European Union and elsewhere, can go much 
more further than what we have gone so far, escalating the 
financial pressures against entire networks in sub-Saharan 
Africa and those around world that support them.
    Again, Congress leads the way. And I won't belabor the 
point, because you all know it, and you champion it, 
Congressman Smith. But the Global Magnitsky Act gives us an 
incredibly potent tool.
    Now, the administration is overwhelmed. There is all kinds 
of stuff going on. They have got, now, all these new efforts 
that are probably going to be taking place related to Iran. 
They need congressional support and push and pressure to ensure 
that we can utilize these incredibly potent tools that are not 
being utilized now sufficiently for our goals--our shared goals 
in Africa.
    Now, the second interlocking tool, because sanctions simply 
aren't--network sanctions aren't enough. The second 
interlocking tool in a sort of cocktail of more effective 
potential pressure and leverage that the United States could 
deploy in support of religious freedom and press freedom and 
individual freedom is the full range of anti-money laundering 
measures that are available to the United States Government. 
The increasingly effective use of these AML measures to focus 
on corrupt and criminal regimes around world that are also 
targeting civil society, we can use these AML measures in 
Africa, just as they have been used effectively in Iran and in 
North Korea and Burma and other places.
    Remember, when corrupt leaders or their business associates 
take bribes or they otherwise divert funds into their private 
accounts, then place those funds into the formal international 
banking system, usually in U.S. dollars, which gives Treasury a 
direct connection and orbit, then that is money laundering. And 
our investigations and research have demonstrated that this is 
occurring across a number of countries in Africa. They route 
their money through neighboring countries using U.S. dollars 
and then into the international financial system. That means 
the U.S. Government can act. We have the authority.
    You can use public advisories to banks. You can request 
through the Financial Crimes Enforcement Network at Treasury, 
FinCEN, you send requests from FinCEN to thousands of banks on 
specific targets of interest. This forces the banks suddenly to 
look at these issues that they otherwise have just no interest 
in.
    So, again, if you are going to impose sanctions but no one 
is looking to where the money is going through the 
international system, they are useless. This is what we have 
been doing. Don't do it. It makes us look like a paper tiger 
just to impose sanctions without then working with the banks 
who are the getaway cars for all this stolen money. And this 
then creates that leverage that, if we went after the money and 
if the banks were our allies in doing that, bringing pressure 
to bear specifically on the people that are looting these 
States and repressing these people.
    What is Congress' role? Well, as I said already, in many 
cases--look, this says 10 years. Go back as long as we have 
known each other, Congressman Smith, whether on Iran, Russia, 
North Korea, et cetera, et cetera, et cetera, some of the most 
effective financial pressure measures have been imposed, have 
been pressured and pushed and brought forth by Congress.
    Congress, and, in particular, this committee, and this 
subcommittee of this committee, has been steadfast in its 
commitment to the people of countries like Sudan, like, Congo, 
South Sudan, many others that you mentioned in your opening 
statements. It is time to bring those two elements together, 
anti-money laundering measures, network sanctions. And ensure 
that critical legislation related to these countries, and we 
know that there is efforts afoot right now on Congo, and that 
is exciting to hear that the subcommittee and the committee are 
thinking about how they can move forward on a place like Congo, 
which is so fraught right now, millions and millions of lives 
are at stake over what can happen in the coming year around 
this electoral process. So Congress getting in early on in 
the--on the train tracks before there is a collision is utterly 
critical.
    The Sentry, I would just like to mention in my closing, is 
a piece of this. It is one of the initiatives that I am working 
on. You know, even if you have new authorities, and even if you 
use these authorities, we still don't have, within the U.S. 
Government, because there is so much attention now 
understandably on Iran and on North Korea on countering 
terrorism and drug trafficking, all the rest of it, what money 
is left to really do the kind of asset chasing, following the 
money, of the resources that are being stolen and looted out of 
Africa by the same people that are repressing these folks in 
the countries we are talking about today?
    So we started an initiative that puts together a team of 
law enforcement folks, intelligence, investigative journalism, 
corporate security, policy experts, all jammed together. And we 
follow the money being looted from these resource-rich, war-
torn countries in East and Central Africa. We haven't got the 
whole continent covered, but we are starting in the places 
where the conflicts are deepest. And we track where it ends up 
across the globe, because nobody is stuffing their money under 
their mattresses. They are putting it in the international 
banking system and buying real estate and setting up shell 
companies, and all the rest of it, like everyone else does when 
they steal money around the world.
    So we are tracking that money. We building dossiers, and we 
are turning that information over to the U.S. Government, other 
governments around the world who can actually take action. And 
we are going to continue to do that. And we would love to work 
more closely with this subcommittee to be able to make that 
happen.
    The bottom line is this: Condemning words are fine. We had 
a condemnation yesterday from the White House on South Sudan. 
That is important to put the marker out there in words, right? 
But the issues that we are talking about today require serious 
action that impose serious consequences for the kind of actions 
that bring us together today in this hearing. Follow the 
illicit money, because those people that are looting the States 
are the same people that are committing these human rights 
abuses. That is their vulnerability. Go after it. We have not 
done that. Follow the illicit money, block it, freeze it, and 
seize it, and that will be the leverage to see improved human 
rights, at least from U.S. Government's perspective, improved 
human rights in Africa today. That is our view.
    Thank you very much for the time.
    [The prepared statement of Mr. Prendergast follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Prendergast, thank you so very much.
    I would like to now yield to Ms. Talani.

 STATEMENT OF MS. NANYTHE TALANI, REPRESENTATIVE, THE TORTURE 
           ABOLITION AND SURVIVORS SUPPORT COALITION

    Ms. Talani. I want to thank you, Chairman Smith, for 
holding this hearing today to give me the opportunity to 
discuss the lack of freedom and persecution of journalists in 
sub-Saharan Africa by focusing on my country, Republic of 
Congo, and my own story.
    I am here today representing the Torture Abolition and 
Survivors Support Coalition, or TASSC. It is a nonprofit based 
in Washington, DC. It provides psychological and employment 
counseling, legal assistance for asylum seekers and advocacy 
training to almost 300 survivors of torture every year. I have 
over 10 years of experience as a broadcaster producer, 
investigative journalist, and human rights activist in Congo-
Brazzaville. Like many countries in Africa, the Republic of 
Congo constitution guarantees freedom of speech and press. But 
this right is only on paper. There is widespread censorship of 
journalists and constant interference of government agencies in 
the media, especially when journalists write about sensitive 
subjects.
    That freedom has deteriorated since President Denis Sassou 
Nguesso changed the constitution in 2015 removing age and term 
limit so he could govern indefinitely. Sassou Nguesso has ruled 
the country since 1979, except for 1992 to 1997.
    The majority of broadcast and print media in my country 
belong to the family members of Denis Sassou Nguesso, or people 
are close to him. Most journalists and editors engage in self-
censorship to avoid being targeting by the government. 
Congolese journalists have basically two options: To praise and 
promote the ruling elite or keep quiet. If you want to be a 
true journalist, you risk threats, at best, or humiliation or 
death at worst. This is what happened to journalist Bruno 
Jacquet Ossebi and Elie Smith. Because he is my former boss, 
they refused to engage in self-censorship. Ossebi was burned to 
death in a suspicious fire in his home. And it was in 2009, 
after he wrote many stories, exposing the corrupt practices in 
the Congo elite. In 2014, security forces invaded the home of 
Elie Smith, robbed him and gang-raped his sister after he 
reported about government folks attacking governing opposition 
party members.
    Now, I will like to share my own personal experience, just 
one. In 2014, I was working for the French-based media 
TerrAfrica, and I wrote a story on ritual murders in the north 
end of Congolese city of Ouesso. These murders take place in 
many African countries, because people believe they can use 
victims' blood or organs to defeat their enemies, to become 
richer or more powerful. Murderers are often rich people who 
pay others to carry out the killings.
    My cameraman and I traveled to Ouesso to interview women 
who had survived attacks and family members of victims. I got 
tremendous satisfaction from my reporting on the subject. The 
mayor of Ouesso was arrested because he was suspected of being 
connected to the killings.
    My article and the gruesome photos that accompanied it put 
a stop to ritual murders in Congo. They did not spread to other 
parts of the country and become commonplace like in Liberia or 
other African countries.
    But harassment from the authorities after my report took an 
enormous toll on me psychologically. The government was very 
angry about my report because they thought that my reporting 
would tarnish Congo's image in the international community and 
among foreign donors. Police found the people I interviewed in 
Ouesso and criticized them for speaking with me. Then 
authorities called my boss and said I should be careful about 
sensitive subjects like the corruption of the government. And 
one of my friends with connection to a secret government agent 
told me that my phone was being tapped. I was so afraid that I 
left my home to move in with my cousin and some male relatives 
whom I thought could protect me in case I was attacked.
    Other journalists in Congo were also being harassed at this 
time. But thankfully, the American Embassy, the European Union, 
and the United Nations told the Sassou Nguesso regime to leave 
the journalists alone. So I think it worked. And that time, the 
U.S. Ambassador in my country was Stephanie Sullivan, now 
Deputy Assistant Secretary in the State Department Bureau of 
African Affairs. I really don't know what would happen if they 
didn't intervene.
    And when you are--you know, when you are constantly afraid 
because you could be attacked, assaulted, raped, or even killed 
by people who will walk away with impunity, what kind of 
professionalism can you display as a journalist? What kind of 
daily life can you have?
    I am sorry.
    This is what I and other journalists are facing in Congo. 
Fear of reporting the truth. Fortunately, at the time, my 
emotional state was deteriorating, I won a Humphrey-Fulbright 
fellowship from the U.S. State Department. I arrived here in 
2015, and started working at Voice of America when I was going 
to school at the same time. And I wrote a story about the 
government orchestrating the killings and civil war in Congo 
Pool region. I wrote the story to make that known. But the 
regime was angry with me, and I--that they knew I was reporting 
the killings, because I was working with the Voice of America.
    And after another one of my stories was published also on 
the election process, I couldn't go back home because one of my 
friends said, ``Nanythe, I know you are intelligent. I advise 
you not to return home.'' So now, I was very terrified about 
what could happen to me. That is why I decided to apply for 
asylum in the United States.
    So today even now, many opposition leaders have been 
imprisoned. Student leaders have been jailed and tortured. 
Corruption, abuse, and human rights and Presidents in power for 
life are three of the major problems plaguing Africa. Congo has 
oil, and other African countries, like the DSC, Angola or 
Cameroon are rich in minerals. But government officials, they 
are using these resources just to enrich themselves and their 
family members instead of building schools, hospitals, roads, 
or paying salaries of people. These governments violate the 
human rights of minorities, journalists and political 
dissidents.
    We need freedom of speech so we can write about these 
issues. That is why I am really proud to be an investigative 
journalist. I just hope that someday we have the press freedom 
in my country like you do in the U.S., because here, 
journalists, they don't have to be afraid when they 
investigate--when they expose the truth. And that Members of 
Congress can pressure Congo and other African governments to 
allow journalists to practice the profession without fear.
    Thank you very much for listening to my testimony today.
    [The prepared statement of Ms. Talani follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Ms. Talani, thank you so very much for your 
testimony and for your bravery in trying to get this story out 
about what is truly happening, particularly the ritual murders, 
the story that you just recounted to us. Thank you for that.
    I would like to now turn to Mr. Harris.

STATEMENT OF MR. STEVEN HARRIS, POLICY DIRECTOR, THE ETHICS AND 
   RELIGIOUS LIBERTY COMMISSION, SOUTHERN BAPTIST CONVENTION

    Mr. Harris. Thank you, Chairman Smith, and members of the 
subcommittee. It is an honor to join you today and certainly to 
be on this panel. Thank you again for your testimony, Ms. 
Talani, as well.
    On behalf of the Ethics and Religious Liberty Commission of 
the Southern Baptist Convention, I would like to express our 
gratitude for the ongoing efforts of this subcommittee to keep 
track of, and to bring visibility to, the vulnerable and the 
voiceless on the continent of Africa.
    The Ethics and Religious Liberty Commission is the public 
policy arm of the Nation's largest Protestant denomination. 
Consistent with our focus on advocating for human dignity, 
religious liberty, the family, and justice issues in the United 
States, the Ethics and Religious Liberty Commission advances 
the same agenda abroad seeking to bring international awareness 
to human rights violations, religious persecution, and 
injustice around the globe.
    Given today's focus on the contracting civil society space 
in sub-Saharan Africa in general, and my topic on religious 
persecution in particular, I thought it appropriate to begin my 
testimony by laying bare the philosophical presuppositions that 
give legitimacy to a concern for religious freedom at all. In 
other words, why does it matter that we take into account the 
plight of religious communities in our overall analysis 
concerning both the state of certain Africa governments, and 
the attending question of normalization with the same?
    Firstly, it cannot be rehearsed enough that the right to be 
religiously free--that is, to worship or not worship according 
to the dictates of one's own conscious--is a right that stands 
at the heart of what it means to be human.
    Secondly, as we consider whether certain democratic ideals 
are taking root in a particular country, it is important to 
remember that the consent to be governed does not, and ought 
not, include state ownership over the conscience. When 
religious freedom is not protected, myriad human rights 
violations, various forms of violence, and overall 
destabilization is usually the result. This sentiment has been 
expressed already by officials in our current administration. 
Moreover, scholars have argued that one of the effects of civil 
society--religious community being a significant part thereof--
is the checking of state power and the resisting of corrupt 
authoritarian rule and overall undemocratic impulses. 
Therefore, thirdly, the suppression of religious freedom can be 
correlated not only with safety concerns for the people of a 
given state, but also with broader, global security concerns, 
including U.S. national security.
    With this ideological backdrop in mind, I will now devote 
the balance of my testimony to the status of religious 
minorities in Sudan. I would remind the members of the 
subcommittee that I have included in my written report 
information on the Democratic Republican of Congo and Rwanda. 
But I will speak about Sudan in particular with my commentary 
here today. I will conclude by offering a few principial 
suggestions for a relational pathway forward.
    In Sudan, the human rights record in general, and religious 
freedom conditions in particular, remains poor. President al-
Bashir and his National Congress Party have been in power for a 
quarter century. Attending this rule, ongoing sites of 
repression, restriction, multifarious governmental attacks on 
civilians has been normative. In February of this year, it was 
reported that an evangelical church building in Khartoum was 
demolished on the charge of public disturbances. However, 
reports indicate that the land itself is desired for Muslim 
business interests. The 29-year-old church building belonged to 
the Sudan Presbyterian Evangelical church, and was one of 27 
churches that the Sudanese Government indicated would soon be 
demolished because of similar charges. Two churches on this 
list were demolished in 2017, one being a Sudanese Church of 
Christ building which served as the church's home to 300 
members, and the last Christian church in the region. Since 
2014, the government has prohibited the construction of new 
church buildings.
    In addition to the destruction and confiscation of church 
property, government official continue to harass and arrest 
church leaders. On April 4, 2017, a church elder, Mr. Yonan 
Abdullah, died after being stabbed during a raid of the 
Sudanese Presbyterian Evangelical church school. Just last 
month, four Christians associated with the protest of the 
aforementioned raid faced new charges of physical harm to 
police with reports of an additional 36 Christians associated 
with the church to stand trial in an unspecified date in the 
future.
    The United States Commission on International Religious 
Freedoms 2018 report redesignated Sudan as a country of 
particular concern. Though the interim national constitution of 
Sudan includes religious freedom protections and recognizes 
Sudan as a multiple religious country, article 5 essentially 
restricts freedom of religion by privileging Islamic Sharia law 
and popular consensus as a leading source of government 
legislation. Moreover, President al-Bashir has stated a desire 
that Sharia be codified as constitutional law. In light of the 
priority of Sharia law application, the Sudanese criminal code 
continues to uphold apostasy laws making conversion from Islam 
punishable by death.
    The task set before this subcommittee and the broader 
congressional deliberative body is the accurate interpretation 
and assessment of these ongoing realities. Cited increased 
humanitarian access, counterterrorism efforts, and even the 
recent recognition of the Seven Day Adventist Church as a legal 
religion, all have occurred within a broader trend of human 
rights violations, toleration of extremists, and religious 
intolerance--an intolerance that was on full display even as 
the United States was reviewing the country's behavior in view 
of sanction reconsideration. We believe this trend reveals that 
the Sudanese regime's ideological commitments are, perhaps, 
incompatible with the requirements of a religiously tolerant 
state. And any United States action ought to be directed at 
these core commitments.
    Consistent with many of the recommendations of the United 
States Commission on International Religious Freedom, with its 
Sudan report in particular, we strongly urge that religious 
freedom be a serious factor taken into account as a foreign 
policy priority as the United States considers the nature of 
its relationship to Sudan and other African countries.
    Governmental structures and the ideologies that undergird 
them must be addressed. Religious freedom cannot be expected 
when it is concurrently undermined by constitutional order. 
Targeted tools and broad diplomacy efforts ought be utilized in 
order to attain measurable improvements. With respect to Sudan 
in particular, we oppose the normalization of relations until a 
measurable impact on the ground for religious freedom and the 
help of civil society can be observed.
    There are discussions about removing Sudan from the State 
Sponsor of Terror list, and we have significant concerns with 
this action absent a local improvement on human rights in 
general and religious liberty in particular.
    Thank you.
    [The prepared statement of Mr. Harris follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Harris, thank you very much for your 
testimony.
    I would like to now yield to Mr. Sykes.

  STATEMENT OF MR. EMERSON SYKES, LEGAL ADVISOR--AFRICA, THE 
          INTERNATIONAL CENTER FOR NOT-FOR-PROFIT LAW

    Mr. Sykes. Good afternoon, Honorable Chair Smith and 
esteemed members. It is my great honor to be with you today on 
behalf of the International Center for Not-for-Profit Law. At 
ICNL, we work with partners in civil society, government, and 
the diplomatic community in over 100 countries, including 20 
nations in Africa, to improve laws relating to the freedoms of 
association, assembly, and expression.
    In line with ICNL's area of expertise, I will focus on the 
first theme of this hearing: Protecting civil society. I leave 
it to the other distinguished panelists to address specific 
issues related to faith-based actors and political speech, but 
I will use the term civil society broadly to include non-
governmental organizations, people's movements, and not-for-
profit media.
    Why do we do this work? Because we have seen that people 
working together are capable of great things. From the struggle 
against apartheid in South Africa, to preserving urban forests 
in Nairobi; from insisting on peace in war-ravaged Liberia, to 
fighting disease and poverty throughout the continent; civil 
society has been at the front lines of positive change.
    Unfortunately, we are in the midst of a global trend of 
increasing legal restrictions on civil society. Since 2012, 72 
governments have proposed or enacted 144 laws restricting civil 
society and the rights to freedom of association and assembly. 
In sub-Saharan Africa, we have seen at least 38 restrictive 
initiatives in 19 countries. The four countries that are the 
focus of this hearing--Sudan, South Sudan, Democratic Republic 
of the Congo, and Rwanda--have not been immune to this global 
trend.
    In Sudan, civil society organizations are regulated under 
the Voluntary and Humanitarian Work Act of 2006. According to 
this law, organizations must receive prior approval from the 
government before they can receive foreign funding. A 2013 
policy explicitly limited foreign funding to humanitarian 
projects, prohibiting international support for human rights, 
environmental advocacy, or even economic development. Given 
that local funding for independent civil society groups is 
virtually nonexistent, restrictions on foreign funding 
significantly impede the viability of these groups.
    In South Sudan, advocacy is not among the permissible 
objectives of civil society organizations making it unclear 
what rules apply to organizations involved in advocacy 
activities. The government has broad authority to deny 
registration if an organization is involved in ``tribal and 
political differences in the country.'' In 2016, the government 
sent letters to several civil society organizations that are 
outspoken on policy issues advising them that they should, 
instead, register as political parties. This type of 
enforcement action can have a chilling effect, discouraging 
organizations from participating in policy-making processes.
    In the Democratic Republic of the Congo, freedom of 
assembly has been under threat as public protests related to 
the delayed Presidential elections have spread. The U.N. found 
that 47 protesters had been killed in the 13-month period 
ending January 31, 2018. According to a 1999 decree, prior 
government authorization is required to hold a peaceful 
protest, even though this requirement is contradictory to 
international and regional law.
    The African Commission on Human and People's Rights has 
issued guidelines on freedom of association and assembly in 
Africa and emphasized that, ``Participation in and organizing 
assemblies is a right and not a privilege and thus its exercise 
does not require the authorization of the state.''
    In Rwanda, the legal framework for a civil society is 
relatively enabling. But in practice, the regulatory officials 
often impose additional requirements and restrictions that are 
not in the law. The government is currently drafting amendments 
to the 2012 laws governing local non-governmental 
organizations, international organizations, and faith-based 
organizations, and held consultations with all three 
constituencies. We hope that the concerns raised by civil 
society organizations will be incorporated into the final 
drafts of the bills before they are presented in Parliament.
    In the face of this negative trend, though, African civil 
society has shown great resilience and achieved some important 
victories. In 2014, the Parliament of Kenya sought to introduce 
a 15 percent cap on foreign funding for civil society 
organizations. This funding restriction would have decimated 
the sector. In response, civil society activists formed a broad 
and well-organized advocacy coalition against the proposed 
amendments and strategically partnered with the U.S. Embassy in 
Nairobi and other diplomatic missions, to pressure the 
Government of Kenya to change course. Eventually, the 
amendments were withdrawn.
    Just last week, Tanzanian civil society and independent 
media advocates successfully challenged the so-called 
``Bloggers fee'' in court. The Online Content Regulations, 2018 
require anyone posting information online to pay a fee of over 
900 U.S. dollars. On May 5, a court issued a preliminary 
injunction to prohibit the government from enforcing the fee.
    In conclusion, I humbly offer a few recommendations for how 
this committee can help support more of these kinds of 
victories. First, Congress should preserve funding to the State 
Department and USAID that help safeguard legal space for civil 
society in Africa.
    Second, Congress should conduct oversight of Federal 
agencies and departments, including those involved with 
counterterrorism, national security, anti-money laundering, 
defense, and international trade to assess the extent to which 
different parts of the government are supporting or undermining 
the legal space for civil society.
    Third, Congress should continue to engage directly with 
civil society through hearings such as this one, and ensure 
that laws and policies support civil society and philanthropy 
in the United States and internationally.
    I thank the subcommittee for the opportunity to testify and 
for its interest in these important issues.
    [The prepared statement of Mr. Sykes follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Sykes, thank you very, very much for your 
testimony and your leadership.
    I would like to begin the questioning. Because we have a 
full group of members today, and we do have votes around 4:00, 
I will ask most of my questions and--right up front, please, if 
you wouldn't mind jotting down or just answering them as you 
would like.
    One overarching concern that I have had--I have worked 
human rights issues in China since I have been in Congress. I 
have been in since 1981. I chaired the China Commission along 
with Marco Rubio. We have had multiple, multiple hearings, we 
have had them in this subcommittee as well, about China's 
growing influence in Africa which portends, I believe, bad 
governance and a whole lot of other misdeeds. There is no 
Foreign Corrupt Practices Act, for example, in China. So the 
buying and selling of business contracts can become even more 
commonplace than they already are.
    But on point with what we are talking about here, we have 
documented in the China Commission that the NGO law that was 
passed by Xi Jinping passed by rubber stamp of Parliament, 
People's Congress, just crushes NGOs and almost completely any 
kind of outside funding or collaboration with those NGOs. And 
they have done the same thing with religion. And Xi Jinping 
seeks to crush religion.
    And I for one, and I am sure it is shared by many of our 
people on the panel, are concerned about China's bad governance 
model which assures that those in power, the elites, are able 
to do as they will with very little fear of being held to 
account, because that is way they do it in Beijing.
    So if you could speak to NGOs and the crushing of religion, 
this idea of no affiliations, if you would like, any of our 
panelists.
    Secondly, Mr. Mengesha, I was wondering--I work on a case 
out of Baku, Azerbaijan. Had been there twice. Met with Aliyev 
the President there. And there was a Radio Free Europe 
reporter, an indigenous reporter who was a good, solid member 
of the team, who got 7\1/2\ years for exposing the corruption 
of Aliyev and his family.
    I met with her. We held hearings on her. We introduced a 
bill. The head of Radio Free Europe came and testified on her 
behalf. And she got out of prison. It sent a message. One 
person is still one person. Some other journalists and others 
got out as well, because we have pushed that she is a microcosm 
of a larger issue in much the same way as Ms. Talani. You talk 
about one person yourself who was bullied because of your 
reporting on ritual killings. And I am wondering, if you will, 
Mr. Mengesha, are there any VOA reporters or any reporters that 
have worked with your service that are imprisoned? Are there 
any of their families that have been bullied, roughed up? And, 
of course, there is a peership. There is a common bond with all 
the other journalists, which I know they feel. Are they able to 
speak out on behalf of the other journalists, as Ms. Talani 
talked about, even when there is a visit of an opposition party 
leader, the journalists are beaten up. I mean, that is absurd. 
They are there to cover and to do reports, and they get their 
faces crushed. So if you could speak to that and, secondly, 
what more can we do--you know, again, Ms. Talani talked about 
how Ambassador Stephanie Sullivan stepped in, as did a few 
other diplomats that really helped you, protected you, when you 
broke that horrific story about ritual killings.
    So the question--I know there is self-censorship, and you 
talked about that. You might want to elaborate on that, if you 
would. But the idea of a sustained effort to say from our 
Government, other free countries, the AU itself ought to be--
they have a human rights treaty, a compact. Where is the 
implementation when it comes to journalists and civil society? 
Are they on the scene doing work, if you could?
    I would ask John Prendergast, if you would. Thank you for 
your work about network sanctions. I think that is 
transformational, especially what the Sentry Project is doing. 
You pointed out in your testimony that there is little risk of 
getting caught because there are too few resources devoted, too 
little personnel and resources by us, the U.S. Government, and 
by European governments.
    What kind of buildout would there need to be on our--I 
mean, you are conveying actionable information. What are they 
doing with it? And we will have a hearing with the 
administration. That will be our next step in this series on 
this very issue.
    What do they do? You give them something. Do they act on 
it? Do they say, ``We will look into it,'' and then nothing 
happens? And what kind of resources do you think need to be 
brought to bear, if you would, to make a difference?
    Let me ask--I have other questions for you, but after my 
colleagues speak, I will get back to those.
    Mr. Harris, you had devastating information about each of 
the countries in question. Sudan, you elaborated on. But you 
also pointed out that 700 churches have been closed in Rwanda.
    We have had a couple of hearings on Rwanda and the human 
rights abuses, the extrajudicial killings ordered by its 
President, we believe. And I am wondering if you could 
elaborate on that as well. It is easy to give a pretext, ``Oh, 
you know, they are just not sanitary, too much noise,'' 
whatever it might be. But it seems to be when you get up to 700 
churches, there seems to be a major, major problem there.
    And CPC designation, my hope is--I am the author of the 
Frank Wolf International Religious Freedom Act, which gave 
additional tools to the Office of Religious Freedom, including 
Sam Brownback, our Ambassador-at-Large. I was with him last 
night. He is all into the whole-of-government approach, that if 
you get religious freedom right, you are more likely to have 
other civil society actors, better treated in a democracy that 
is more likely to flourish. If you might want to speak to that 
as well.
    And again, as you pointed out in Sudan, since 2014, 
government has prohibited the construction of new church 
buildings. So not only are some being torn down and taken over 
and used for other purposes, they are not allowing, in that 
country, even that they be built.
    I do have other questions, but again, in the interest of my 
colleagues, I will come back to those. So if you could maybe 
perhaps address some of those.
    Mr. Mengesha. Thank you so much, Mr. Chairman.
    Our journalists consistently are under threat. A case in 
point is, for instance, about a few months ago, we lost a 
reporter in Mogadishu. He was a camera man. He worked with 
another stringer. Actually, he was killed by an Al-Shabaab 
attack in Somalia, and his name is Ali Nur Siad.
    A week ago, on May 3rd, World Press Freedom Day, the 
dedication ceremony was done in the VOA by the BBG. John 
Lansing actually made the dedication ceremony. So that 
happened. Meaning, actually, if you take Somali in the last 20 
years or so, 64 journalists have been killed. I am just giving 
you the worst scenario. Take Burundi, the one I just told, in 
the last year alone, we have actually removed five journalists 
from Burundi--from Bujumbura--because they were under threat.
    In fact, one of them I have here, Diane, maybe she can--
over there. Her house was bombed by a grenade, luckily no 
family member was there. The next day, I think, with the help 
of State Department and Freedom House, we actually moved her to 
Kigali. And she came here on a fellowship. And now she works 
with us as a contact employee with the Voice of America. That's 
a case. A total of five have been removed.
    I mean, if you take a closer content, to be honest with 
you, Ethiopia, in my home country itself, so many journalists 
have been in jail. Now, most of them have been released. 
Actually, one arrived here. He is in town. Eskinder, by the 
name Eskinder, a blogger.
    Kenya has a problem by itself. Zimbabwe is a good case, 
actually, to be honest. We have a program there.We have almost 
19 stringers. Through Mugabe's time, there was constant 
harassment. People have been thrown to jail also.
    So these are some examples. We can also give you on the 
record actually more information on that. When I go back to the 
office, we can give that to you later, actually.
    You had mentioned China, actually. I think it is China, and 
NGOs, and religious suppression. I think the other person talk 
about it. In terms of media, actually we are facing really big 
difficulty because of China's involvement.
    They actually trained, and also, equipped jamming, for 
instance. Ethiopia used to jam our broadcasts from the Horn of 
Africa in Amharic and Afan Oromo for the last many months, 
actually they have stopped jamming it now. I think the jammers 
have been trained in China and the jamming equipment have been 
given by China.
    The same thing has happened also in Zimbabwe during 
Mugabe's period. China plays a significant role. They are 
actually a really big offensive in terms of trying to capture 
the media environment in Africa. They train journalists, 
actually have started programs in the Swahili, English, French, 
Hausa, they might have more. I hear that they have a total of 
65 languages reaching the world, I think some of them are very 
important languages in Africa.
    Actually, we have taken that very seriously and have sent a 
reporter and a cameraman to Kenya to assess the impact of China 
on the continent.
    We took Kenya as an example because they built a railway 
station, Mombasa to Nairobi. Plus they play a significant role, 
actually in China. They broadcast in Swahili actually on the 
government radio station.
    So very aware that is the things that we are closely 
following.
    Mr. Smith. Just on that same point, does that also apply to 
the internet surveillance that the Chinese have perfected? Have 
you made those repression technologies?
    Mr. Mengesha. To be honest, we get constantly blocked 
whenever there is civil unrest, when there is election. 
Ethiopia has done it. Angola has done that. Zimbabwe used to do 
that. I think, I can't really verify that, whether they have a 
direct hand. The experts should talk about it. But there is, I 
think, blocking of internet throughout the continent, actually.
    Mr. Smith. Thank you. Mr. Prendergast.
    Mr. Prendergast. So two quick things. One, is on the way 
that the U.S. Government responds to the information that we 
give them through, from The Sentry.
    Over the last two administrations near the end, we have 
just started, sort of in, a couple years ago, so near the end 
of the last administration and now you are in a quarter of 
whatever it has been from the new administration. Great deal of 
interests across departments led by the Treasury Department. 
And we create these dossiers in the form that dossiers are used 
in the U.S. Government.
    So we have a number of people who worked in Treasury, 
worked at State, worked at the NSC, so they know what people, 
what kind of information you need and what kind of legal 
vetting needs to have been done before you can actually make 
the case for imposing sanctions on a particular person. So that 
is the kind of dossier we create.
    Now the problem is--and so far, they have acted on a number 
of things. The problem is resources, like it is everywhere. But 
it is very small amounts of money that can go incredibly far.
    This now is the central instrument of U.S. foreign policy 
to leverage change related to democracy, human rights, 
counterterrorism, countering nuclear proliferations, the 
sanctions and money laundering efforts, any money laundering 
efforts are central to U.S. projection of power.
    And you can understand that Africa is at the bottom of the 
priority list. And so in the context of the appropriations 
process, there is a request from the appropriations to enhance 
by $3.25 million--not billion--million dollars, very small 
amount relative to the larger picture. I am not saying that 
this is peanuts. But to help support OFAC, the people who do 
the sanctions, and FinCEN, the people who do the AML work to 
help build their capacities to carry out their work.
    So I think that if this subcommittee were supportive of 
that, that would be really useful, politically, as the process 
go forward. And just a quick point on China----
    Mr. Smith. And that would be enough or that would be a 
start? I mean, you would be asking for more? That is not much 
money.
    Mr. Prendergast. They have made an assessment----
    Mr. Smith. Yeah.
    Mr. Prendergast [continuing]. That in order to be able to 
do--I mean, it is not going to be all that they need to be able 
to deal with all of the kinds of issues that all of us around 
the world want to see the United States Government work on 
related to human rights and democracy promotion and religious 
freedom, and all the other issues that would motivate.
    But it is a start in enhancing that capacity to be able to 
do that. And we will provide more information about where that 
is in the process and connect you to the right people.
    Just one point on the China issue, you know. It is clear 
that we had decades, I think, one could argue, Africanists 
would argue, Africans would argue, their trend line was 
increasingly positive with respect to democracy, the growth of 
democracy, and protection of human rights on the continent over 
the course of, from the 2000s through the early part of this 
decade.
    We have seen a real pullback. And often when our diplomats, 
when U.S. diplomats go in to speak with their counterparts in 
Africa, the African Governments will just say, if you are going 
to press us on these democracy issues, if you are going to 
press us on these human rights and religious issues, we are 
just going to turn to China, because they don't make these same 
demands.
    Okay. That is a given. That is a reality. I don't see us 
changing that piece of it. However, what we can change is the 
leverage we bring. So when you sit down in a room and have 
those meetings with leaders, and you are not bringing any 
leverage to the table, you are just saying, Gee, isn't human 
rights and democracy in your interest?
    They are, like actually, probably not, because our interest 
is looting the state and staying in power. So our words and our 
ideals are not enough. They may have been in the past. They are 
not now. But the financial leverage we have, because most of 
these governments are using the international financial system 
and moving money in dollars, the leverage that we have is far 
greater than China. If we use that leverage and target these 
individuals, not talking about the kind of sanctions that 
existed in Sudan in the 1990s and 2000s where you have 
sanctioned a whole country.
    No, you focus in on those people who are most responsible 
at the top of the chain for the destruction of their countries, 
for the looting of their countries, you build out an 
understanding of their financial networks and you go after that 
vulnerability.
    Then you go in and have a meeting with them. And they are 
not saying, We are going to run to China, because they can't. 
Because now all their real estate in Europe and in Australia 
and North America, wherever they have been hiding all their 
assets, is potentially now locked up. And all of the people 
they have been working through, the cutouts, and a lot of these 
rulers use their children as the owners of the companies that 
own the real estate in the United States and Europe and other 
places. Once you start going after that, then they are going to 
start talking to you.
    So, again, it is about building leverage for human rights, 
for the promotion of democracy, for the promotion of religious 
freedom.
    Ms. Talani. Thank you again. I want to say before that, 
that my report on ritual murders is only one of the reports I 
did. I did a lot of them. And so all of my reports were 
exposing the violation of human rights or the killings of 
people, everything which needs to be fixed in my country. 
Because I think the role of a journalist is to target the 
things that are not right in the country and to get them fixed.
    So when this happened to me, when the government really 
came to me and say, Hey, you need to be careful, we don't want 
you do what you are doing. At the same time, the journalist, 
Elie Smith, who was my boss, so I said he was attacked and his 
sister was gang-raped. But also another journalist Sadio Kante, 
she was expelled from the country. And Morgan Palmer, he was 
also expelled from the country.
    So I remember even I said, in 2015 my boss from France, he 
asked me to do a report. It was on corruption. I said, No, I am 
afraid. I don't want to do that report. And he said, But I am 
afraid, too. And I said to him, You know, you are afraid, but 
what they can do to you is just to expel you from the country 
because you are French, but for me, since I am a Congolese, I 
cannot even imagine what they are able to do.
    So the interpretation of the U.S. Ambassador, I mean 
Stephanie Sullivan, and the United Nations and the European 
Union came really on time. Because a lot of things were going 
on on the ground at the same time. So they hide the back and 
they make a lot of pressure on my government. So if they didn't 
do anything, I think, things would go like worse.
    And I remember that, you know, the U.S. is really concerned 
about freedom of speech or the protection of human rights 
around the world, and they want my country to be like the U.S. 
So they are just doing what they can do.
    I remember one day we had a meeting of journalists from 
Congo at the U.S. Embassy. They asked us what was going on. If 
we had some fright in my country. But I think nobody said 
anything because we know that among, as journalists, some have 
connection with the police. If you say anything, they are going 
to report and you can get bad. So that, they wouldn't do 
anything.
    So I would like to say, what the U.S. can do, if you want 
to protect journalists in my country, for example, you don't 
have to gather all of them together because we are very afraid 
of reporting, we are frightened of the government. So it is 
hard, but it is better to take the journalists one by one so we 
can feel free to expose what the government is doing to us.
    But really, I really appreciate everything the U.S. 
Government is doing to protect the rights in Africa and around 
the world.
    Mr. Harris. Mr. Chairman, thank you for your questions. I 
will seek to answer them in turn. Certainly, if we conceive of 
religious freedom as this fundamental, inalienable right of the 
human conscience to decide of itself and for itself, matters of 
faith and/or other religious deeply-held beliefs, and to 
attribute particular actions or animations that accord with 
those convictions, then certainly when we see such efforts--you 
mentioned China's involvement on the continent--to suppress 
religious freedom, it is not in the best interest of the 
continent itself, a particular country of concern itself.
    Ironically, if we do concede the definition or 
understanding of religious freedom that I just laid out, then 
the suppression of religion is itself a particular religious 
imposition, right? And so however we regard China's 
involvement, and I recall the particular hearing most recently, 
perhaps provocatively used the term ``colonialism,'' I think it 
is attributable in this case.
    We want to make sure that we are understanding a particular 
country's own self-interest, particularly as it relates to 
religion. That suppression, in and of itself, is an imposition 
of a particular religious ideal that undermines a sense of 
freedom and a sense of self-worth and a sense of self-
ownership. And I would argue that this particular freedom, 
because of its nature, actually serves as the kind of 
cornerstone of a free society. Whatever long-term interest we 
might regard or question even of China's involvement on the 
continent, certainly the suppression of religious freedom would 
undermine whatever those long-term benefits are that we would 
be hoping to see.
    On the question of Sudan, in particular, I think there is 
continuity here as well, particularly with the closing of 
churches, and with the prohibition on further building church 
buildings. It betrays a particular, again, understanding of 
religion and a particular religious ideology, which is why I 
think it is legitimate to question whether or not the 
governmental structure of the country is, itself, compatible 
with the ideal.
    And so we just want to encourage this deliberative body to 
determine, as we are seeking to think about relationships with 
this country in particular and their own attestation of an 
affirmation of religious freedom, whether or not the particular 
practices on the ground actually bear that out.
    It is our sincere belief that if this particular freedom is 
not safeguarded, then the hopeful efforts that we would like to 
see, particularly with Sudan, are going to be short-lived. And 
so we would just encourage, as we think about our foreign 
policy initiatives, that this particular ideal on the ground is 
commended with actual measurable results. And I think measuring 
the amount of church closures, and perhaps the amount of 
churches that are allowed to be built, is a measurable 
indicator, right? If the answer to that is zero, then I think 
that speaks to a particular problem.
    Lastly, and I think, again, there is continuity across the 
board here on the question of Rwanda and the 700 church 
closures there. It is interesting, one of the commentators of 
that particular event actually said that the local church 
space, or perhaps religion in general served as the last spaces 
where individuals could imagine a future that they themselves 
would like to see put in place.
    These spaces are, in many ways, incubators of democratic 
ideals where, rooted in the convictions of the particular 
community, they imagine beyond, perhaps, the horizon of the 
current governmental structure. And that is threatening; that 
is deemed threatening. Similar to the issue that journalists 
are facing in other countries, I think it is similar in Rwanda, 
a country that has seen remarkable economic development, but in 
many ways, it could be said, is experiencing an ever-closing 
political space. I think there is an identification of these 
local churches, not because they are primarily political in 
their actions, but, again, because they are ideators of 
particular visions of nation-building that, perhaps, are 
critical of the particular governmental structure in power.
    And so how do you advance, or how do you close, rather, a 
political system? You certainly go after the spaces that are, 
again, kind of incubators of these democratic ideals, which 
these local churches in Rwanda are.
    Mr. Smith. Before you conclude, and then I will go to Mr. 
Sykes, when President Obama laid out five criteria that Omor 
al-Bashir had to reach in order to have the sanctions lifted, 
human rights, in general, religious freedom, in particular, was 
not included.
    At the time, I and others said this is outrageous. How 
could you not have human rights as a benchmark for the lifting 
of those sanctions? As Mr. Prendergast knows, when we did these 
sanctions originally, human rights was at the core of what our 
concerns were. And I am wondering now that we are seeing very 
poor consequences from that, and, I would add, predictable 
consequences, if we don't think it is important, he is not to 
going to put it on his list of to-dos.
    What is your thought on that? Are we seeing these church 
closings as animosity that is being ratcheted up, in part 
because the can get sanctions relief pursuant to the five 
benchmarks without human rights or religious freedom?
    Mr. Harris. Well, certainly I don't think it would be 
outside of reasonable consideration to suggest that if these 
particular ideals were left off of such a list, then there 
would be no consequences, as it were, for violating in this 
particular arena.
    I would say as well, you know, one of the things that we 
have been adamant about, and I know other colleagues, 
panelists, have been adamant about as well, is trying to 
articulate why this particular ideal ought be considered in 
foreign policy objectives. It has been a slow-going process of 
trying to help individuals understand, philosophically, why 
this is such a pertinent issue. So we are encouraged that this 
is beginning to be part of the dialogue, and hopeful that it is 
taken seriously in policy considered ahead.
    Mr. Smith. Thank you very much.
    Mr. Sykes.
    Mr. Sykes. Thank you very much, Mr. Chair. I wanted to 
respond to your question about the China NGO law, which as you 
mentioned, restricts foreign funding and the independence of 
the sector. And also highlight a tool at the disposal of the 
United States that has and can be used to great effect and 
requires very little investment. That tool is the Lifeline 
Embattled CSO Assistance Fund.
    This is a fund that is funded by a coalition of 
governments, including the U.S. State Department, and has been 
used in a number of countries worldwide to respond to emergency 
situations. And the example that I would like to highlight is 
actually in Congo-Brazzaville.
    As we have heard, there are horrible restrictions on the 
press, on civil society. This is a government that is not, in 
general, a rights-respecting government, but even in a context 
like that we can have impact with relatively small investment.
    In 2015, there was a draft Associations Bill introduced in 
Congo that was not dissimilar from the bill in China. It 
limited funding. It limited independence of the sector. In 
response to that bill, a small Lifeline grant--less than 20,000 
U.S. dollars--was given to a consortium of organizations in 
Congo. ICNL provided them with legal analysis based on 
international norms and best practices, and they created an 
advocacy coalition, a broad-based advocacy coalition that 
included human rights groups, development groups, groups 
working on healthcare, groups working on freedom of expression. 
And they came together to advocate directly with 
parliamentarians in their country.
    As we mentioned, the utility of Americans telling folks 
what to do and to respect rights is limited, but when people 
speak to their government in a coordinated and informed way, 
they can have an impact, even in contexts like Congo-
Brazzaville.
    Eventually, that coalition through months of effort 
convinced their parliamentarians that this bill was a bad idea, 
that it would have negative impact on their constituents, in 
local language, and that bill was eventually withdrawn.
    So, of course, it didn't fix every problem in Congo-
Brazzaville, but you can have impact using specific tools like 
the Lifeline Fund. Unfortunately, a new bill is now pending, so 
we are hoping to continue to support that advocacy coalition to 
respond to continuing threats. Thanks.
    Mr. Castro. Mr. Prendergast, let me ask you first, are you 
aware of any actions in other countries pursuing network 
sanctions on individuals in the countries that you have talked 
about and described?
    Mr. Prendergast. I think they are playing catchup. I have 
spent some time in a number of European capitals, as have my 
colleagues, basically preaching a bit, and educating about the 
limits of the current sanctions approaches.
    The Brits are probably the furthest along, and they have 
made some quite substantial progress in the last 6 months on a 
number of issues related to financial transparency, and as we, 
most of you know, and on the sanctions stuff.
    So I think we are going to see much more lockstep on the 
network side of things when the U.S. moves the Brit, at least. 
But, of course, it is always a struggle with a number of other 
countries on the European continent.
    So we are focusing primarily on Germany and France as 
potential leaders in understanding this, but it is a hard slog. 
And I guess the reason why we, you know, after having worked in 
government for a number of years and then watched successive 
administrations after my time in government, have so much 
trouble building these international coalitions for second- and 
third-tier issues, perceived second- and third-tier issues.
    We wanted to look at tools, U.S. Government tools, that 
when they are used unilaterally, A, other governments can come 
along later and support; and B, in and of themselves they can 
have an impact. And because of this issue of the U.S. dollar 
dominating international commercial transactions, the U.S. 
Treasury Department has a wildly outside influence when it 
comes to influencing these governments when they use anti-money 
laundering measures.
    And all this infrastructure, this architecture was built up 
after 9/11 in the aftermath of the attacks. And so we now have 
global instruments for restricting the movement of illicit 
financing that the banks comply with, because if they don't, 
there are massive, billions and billions of dollars of fines.
    So it is not just the government. This is what I am, I 
guess, I am coming in for a landing here, what is more 
important to us at this point is engaging and involving the 
international banks in whatever sanctions, regimes, network 
sanction regimes and money laundering efforts were undertaken. 
Because if they have evidence, they can just move themselves. 
It doesn't matter what other governments are doing, because 
they don't want to have these horrific fines. Because whenever 
there is an opening in the international financial banking 
system, when one of these--like we just published a report last 
week on a Congolese bank, that it opened up its floodgates to 
allowing corrupt actors to launder their money through that 
bank.
    Well, guess who follows right away? Terrorist groups. A 
breach in the system. Nobody is complying with the 
international legal framework, let's go in.
    And we found evidence, in this case, Hezbollah coming in 
right after the Kabila regime's illicit financial activity. And 
so the banks don't want anything to do with that.
    And so these small regional banks all over Africa, in order 
to trade in U.S. dollars, in order to do business in U.S. 
dollars, have to create these relations called corresponding 
banking relationships with the banks in the United States, with 
the big global banks, and in Europe.
    So they have to comply with these. Once they are alerted to 
money laundering occurring within their system, they have to 
take action on it. That is, to me, the key, more than the old 
coalition building, we would go around with our, you know, 
trying to get the Europeans to do this and that. But the global 
banks are the key on this kind of stuff.
    Mr. Castro. Thank you. And Ms. Talani, I had a question for 
you.
    Your organization does important work rehabilitating 
victims of torture that have found their way to the United 
States, including through refugee and asylum mechanisms. But 
let me ask you: How has the President's limit on U.S. intake of 
refugees affected those fleeing oppression in sub-Saharan 
Africa.
    Voice. Could we get one of our lawyers to answer that 
question? Could we do that?
    Mr. Castro. If the chairman is agreeable to----
    Mr. Smith. Without objection, it will be done.
    Voice. We will get back to you on that.
    Mr. Castro. Oh, okay. Sure. I yield back.
    Mr. Smith. Thank you. If I could, I actually wrote the 
Tortured Victims Relief Act, which established Tortured Victims 
Relief Centers in the United States. I have done four laws on 
that. And we do have a very robust effort. We have in excess of 
500,000 people in the United States who came here as asylum 
seekers who have been tortured and degraded pursuant to the 
terms of the Convention Against Torture.
    And obviously, the scars they carry are often PTSD, the 
physical ones may heal--may--but the psychological scars often 
go unattended. And that is globally as well.
    I am wondering, if you could, Ms. Talani, or anyone else 
who might want to speak to it, have people utilized those 
centers, either here in the United States, particularly some of 
the emigres? But overseas, we also support them there as well. 
We also support the U.N. Voluntary Fund For Torture, which also 
establishes these centers. They are an amazing resource for 
rehabilitation of someone who is walking with nightmares, can't 
sleep.
    Sitting where you are, as we prepared the first bill, we 
heard from one person after another who had been tortured. And 
they all had the same, they couldn't sleep. They had 
nightmares. The would wake up at 2:00 in the morning in a 
confined situation that they lived through. And as journalists, 
certainly the beatings, all of that, you know, carries with it 
a psychological consequence.
    Have any of them utilized those centers or the best 
practices that they utilized.
    Ms. Talani. Yes, myself I use them, or with TASSC. Because 
even though I am in the U.S., sometimes I don't feel safe. If 
my roommate is not home, it is always like someone might come 
in the house, so I have to lock myself in my home.
    So at TASSC, I have psychological counseling, so we have 
like punctual meetings. So if I wanted to talk about something 
I--and also, you can see in my long testimony, I mentioned a 
lot of things. Back home, I couldn't talk about those things. 
So if even today I can sit here speaking with you, because I 
have that psychological support. If I didn't get it, I wouldn't 
be here talking with you. I couldn't.
    But we have some new policies here, some asylum seekers, 
sometimes we are afraid. We consider the U.S. being really the 
land of freedom which can give us security, but sometimes we 
don't feel safe, and some asylum seekers don't feel safe. Maybe 
our government will pressure the U.S. Government to take us 
back home. But we still have hope that the government is able, 
the U.S. Government is able to save us.
    But TASSC is really helpful to us. It has given tremendous 
support to us. It not only helped us on the psychological side, 
but also for many of us to find a job. Because you know when 
you leave your country and you come to a U.S., English is not 
your first language. For many people, they don't even speak 
English, so finding a job is very hard. And TASSC is helping a 
lot of people on that, too.
    Mr. Smith. I would like to yield to Mr. Garrett. You know, 
I would just note parenthetically that Congressman Garrett 
actually represents the area where Thomas Jefferson lived two 
centuries ago. And it was Jefferson who said, ``Were it left to 
me to decide whether we should have a government without 
newspapers or newspapers without government, I should not 
hesitate to prefer the latter.''
    I yield to my good friend and colleague, Mr. Garrett.
    Mr. Garrett. There is nothing like getting called away and 
coming back in and immediately having your named called.
    I want to apologize to you all on the panel, sincerely, for 
being in and out of the room. The challenge, I think, that I 
most lament is the degree of bandwidth required to try to 
effectively function here.
    But I want to thank you all for being here and tell you 
that these are the sort of hearings that I really love and live 
for. As a first-year member, the frustration as it relates to 
the difficulty of passing legislation is beyond anything I 
could comprehend in advance.
    Having said that, as a member of this committee, and 
specifically, this subcommittee, I sort of found a reason for 
being. Thomas Jefferson also said that ``Sunlight is the best 
disinfectant.'' And it has been probably the pinnacle of my 
achievement in my limited time here to have traveled on an 
unsanctioned trip to the Republic of the Sudan to secure the 
release of two gentlemen, Pastor Hassan and Seminarian 
Abdulmonem (ph), as well as seven family members, and 
ultimately secure refugee status for them in this country, 
which allowed me the opportunity to cross paths with some much 
amazing folks, the people at Jubilee, Middle East concern, VOM, 
a young lady named Courtney Gates, who works religious freedom 
missions issues at the U.S. Mission in Sudan who is remarkable.
    And having had the opportunity as well to have dinner with 
the former head of NIST Mohammed Atta, which is an interesting 
name, as well as having dined in the home of Ibrahim Ahmed 
Omer, who is the speaker of the assembly. And the reason why I 
started with the Jefferson quote, ``that sunlight is the best 
disinfectant,'' is while everything you say as it relates to 
the human rights record of Omar al-Bashir is absolutely and 
unequivocally true.
    And having heard, particularly you, Mr. Harris, mention the 
destruction of churches, being able to say that I have actually 
been to a couple of those churches and met with some of the 
religious leaders, I think the Sudanese and many other nations 
tend to behave better when they know that the United States is 
actually looking and gives a darn.
    And it is interesting from a political standpoint to hear 
from people who generally tend to agree with me who lament our 
engagement in foreign affairs and international aid, et cetera, 
as something that is not physically prudent, because nothing in 
life is linear ultimately, and you never reap your harvest when 
you sow your proverbial crop.
    And I think it was Mattis who said, we can either invest 
money in foreign aid or in bullets and bombs. And having worn 
the uniform of the United States military, I can assure you I 
would much rather help individuals prosper and have self-
determination than send young men and women, whether American 
or foreign nationals, into harm's way. It should always be a 
last resort.
    And so I believe in everything you speak about today--and I 
am encouraged candidly by the 2016 actions to extend Magnitsky 
to a global scale. I think that it is an amazing--and I am not 
just going to soliloquy but it will be mostly that, because I 
am in a hurry, you all are in a hurry, and the chairman. But 
there is going to be an imploration/request at the end.
    But is it an amazing new tool. And if we can empower the 
entities in this country to do their jobs with Magnitsky, with 
FinCEN, et cetera, I think we really can move the proverbial 
needle.
    Having said that, as I said when I came in, I will come 
full circle. In order to have a Ph.D, you have to know 
everything about something. In order to effectively serve in 
this body, you have to know something about everything, right? 
Literally at some point today, I will cover a K-12 ed, we will 
do higher ed, we will talk about healthcare. And, literally, I 
have today.
    Iran obviously is in the news, et cetera. But folks like 
yourselves can tell stories to us, and those stories can help 
us understand what is going on. And by understanding what is 
going on, then we can impact a difference.
    I will speak to this by way of breaking my arm, patting 
myself on the back. With the Sudanese, as a freshman member, we 
got engaged with a number of other members, I believe, to 
include Chairman Smith in an effort to help secure the release 
of a Czech national Pastor Petr Jasek, who was aided by these 
two gentleman, Pastor Hussan and Abdulmonem, from the Sudan.
    The Sudanese had worked with the Chinese a number of years, 
really as a result of the Draconian sanctions that we placed 
upon that nation in the 1990s. And the rail infrastructure had 
broken down, and they wanted to work with the Americans because 
the Chinese couldn't fix it. So what we identified was an arena 
wherein we had something they wanted. And that was really the 
technical expertise of engineers at General Electric, of all 
things, right?
    And so where we are able to identify areas that are 
essentially soft spots, and impact positive change as it 
relates to the arena of global human rights, we should do it.
    Having said that, yet much remains to be done. And I am 
asking if each of you would kindly consider reaching out to 
Tripp Grant from our staff after this meeting concludes with 
your contact information. And I am going to have Tripp come 
down, and if you have time to stay, share his contact. And if 
you can get by our office, I would love to have you over and 
listen.
    And the reason is simple. There are two foreign aid 
paradigms in the world. There is the U.S. foreign aid paradigm 
which largely seeks to give money to human beings, and empower 
human beings to empower themselves, whether it is programs to 
help women start venture enterprise wherein women involved in 
the economy and the education realm creates a world where 
radicalization is less prevalent, and expands opportunity 
really across the population. Or whether it is simply food.
    When I was a soldier deployed in the Balkans, every candy 
bar I got--which we didn't get candy bars--but every pack of 
Charms, every pack of M&M's I got out of my MREs went to a 
local national child because my feeling was that their 
interaction with the United States would be that somebody gave 
them some M&M's they would have never gotten otherwise. And 
maybe when that young person, and they are old now in their 
30s, which scares me, thought about the United States down the 
road, they would have a positive memory. But there is value 
there.
    That is our paradigm. And it works in societies where 
people are free to have self-determination. That is what people 
want. They want help, or they want care.
    The Chinese paradigm is give money to the autocrats and the 
kleptocrats, build soccer stadiums, build Presidential palaces. 
I personally witnessed a Presidential palace that probably 
rivals the Cannon House Office Building in size that was paid 
for entirely by the Chinese Government. And ours is better than 
theirs as long as people can have some sort of self-
determination, but ultimately they never will.
    If you look at the foundations of civil societies, the Bill 
of Rights prioritizes the First Amendment first. Speech, 
assembly, religion. And then understanding in the religion 
context, the establishment clause shall make no law 
establishing religion nor prohibiting the free practice 
thereof.
    We cannot, at the barrel of a gun, or by shaking our hands 
in hegemonic manner, foist American values onto the world. But 
what we can and should do is say to the world, We will do 
business with people who share the basic modicum of our values. 
And if we do that and we mean it--and I say that with emphasis 
because we have had paradigms, the Iran Sanctions Act of the 
1990s, wherein we turned a blind eye while people undercut 
sanctions, because why? Money. And when you put money ahead of 
human life, then don't be surprised when bad things continue to 
happen.
    But if we do that, we can beget good. So here is the 
imploration again, and I apologize for the rambling. Please 
come to us and let us know what we don't know. And 
specifically, Mr. Harris, as it relates to the Sudan, the 
things that are going on that we might have missed because 
there is a lot of other stuff going on. So that we can reach 
out and exploit in a positive manner the relationships we have 
established with people who were sure not perfect but who I 
think if they know we are paying attention, might be able to be 
able to be nudged in the right direction.
    And please let us know where there are opportunities that 
we can advocate on behalf of a better world for human being 
within the purview of the role of the United States Government. 
Which, again, is not to be dictatorial, but we should 
promulgate policy that helps people who help people.
    So I thank you. And again, I apologize for the nature of 
this. I am running around like every day, but genuinely, 
apologize for being in and out. And I appreciate what you all 
do, and please stay long enough for us to exchange contact 
information.
    Thank you, Mr. Chairman.
    Mr. Smith. I want to thank our distinguished witnesses for 
your leadership, your commitment. You inspire. And you have 
given us a lot to act on, and I thank you for that.
    If there is anything you would like to add before we go or 
in the hearing? Okay. Then this hearing is adjourned. And I 
thank you so very much.
    [Whereupon, at 3:28 p.m., the subcommittee was adjourned.]

  
                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
